April 1, 2009 - September 30, 2009





                  October 2009
OFFICE OF INSPECTOR GENERAL




    UNITED STATES INTERNATIONAL TRADE COMMISSION


                               WASHINGTON, DC 20436


November 2,2009

Ms. Shara L. Aranoff
Chairman
USITC
Washington, DC 20436

Dear Ms. Aranoff:

Attached is the Office of the Inspector General Semiannual Report for the period
April 1, 2009 through September 30, 2009. This report summarizes the activities and
accomplishments of the Office of the Inspector General and is submitted in
accordance with the Inspector General Act of 1978, as amended.

As you know, I came on board on August 17,2009 and since that time the Office of
the Inspector General has focused on completing two audits:
        1.	 An audit of the US International Trade Commission's Financial
            Statements; and,
        2.	 A performance audit required under the Federal Information Security
            Management Act of2002.
These audit reports are likely to be issued in the next few weeks. I am available, any
time, to discuss these audit reports and/or the operations of this office.

The Office of Inspector General will continue to work constructively with the
Commission to further our common goal of assuring the effectiveness, efficiency and
integrity of Commission programs and operations. Thank you for your support of this
office.

Sincerely,

~~-
Tony Baptiste
Acting Inspector General
                                                              ig

                                          October 2009 Semiannual Report




                                                 TABLE OF CONTENTS


OFFICE OF INSPECTOR GENERAL .....................................................................................1


PROVISIONS OF THE IG REFORM ACT OF 2008 ..............................................................2 


COMMISSION'S TOP MANAGEMENT CHALLENGES .....................................................4 


COMMISSION PROFILE.........................................................................................................7 


AUDIT ACTIVITY ..................................................................................................................8

 Reports Issued During this Period ..........................................................................................8

 On-Going Audits.....................................................................................................................8 

 Audit Follow–Up ....................................................................................................................9


INSPECTION and EVALUATION ACTIVITY.....................................................................10


INVESTIGATION ACTIVITY...............................................................................................10 

  Summary of Investigative Activity 


UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE............................11 


OTHER ACTIVITIES .............................................................................................................12


REPORTING REQUIREMENTS INDEX..............................................................................15 

Table 1: AUDIT REPORTS WITH QUESTIONED COSTS ................................................16 

Table 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO 

 BETTER USE.......................................................................................................................17 


GLOSSARY ............................................................................................................................18 





                                                                  i
                                          ig

                             October 2009 Semiannual Report




              THE OFFICE OF INSPECTOR GENERAL
The U.S. International Trade Commission established the Office of Inspector General (OIG)
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The OIG is headed
by an Inspector General (IG), who reports directly to the Chairman and Congress. As set
forth in the IG Act, as amended, the IG has the authority and responsibility to conduct
objective and independent audits, reviews and investigations of the agency’s programs and
operations. Specifically, the IG is responsible for promoting economy, efficiency, and
effectiveness within the Commission; preventing and detecting fraud, waste, abuse, and
mismanagement in the Commission’s programs and operations; providing comments and
recommendations on proposed legislation, regulations, and procedures affecting the
Commission; and keeping the Chairman and the Congress fully and currently informed of
problems in agency programs and operations.

The OIG organization consists of three staff positions: the (Acting) Inspector General,
appointed on August 17, 2009; an auditor (vacant); and an administrative specialist. In
addition, Treasury Inspector General for Tax Administration has agreed to provide legal
services to OIG on an as-needed basis through a Memorandum of Understanding.


                  Office of Inspector General: Organization

                                 Inspector General




                 Auditor                             Administrative
                (Vacant)                               Specialist




                                             1

                                            ig

                             October 2009 Semiannual Report




Provisions of the IG Reform Act of 2008
  On October 14, 2008, the IG Reform Act of 2008 was signed into law (P.L. 111-409). With the
  exception of amendments over the years to add new Inspectors General, this legislation was the
  first major action on IG reform since the passage of the 1988 amendments. The goal of the IG
  Reform Act of 2008 was to further enhance IG independence, create the CIGIE, and improve
  operations. Provided below are the Act’s major provisions:

IG INDEPENDENCE
 Appointment and Removal of IGs: IGs are to be appointed without regard to political
 affiliation, and solely on the basis of integrity and demonstrated ability in accounting,
 auditing, financial analysis, law, management analysis, public administration, or
 investigations. Before an IG can be removed or transferred, an agency head must provide
 the Congress with 30-days advance written notice, which would include the reasons for
 removal or transfer.
 IG Pay: Salary adjustments were made for IGs who are presidentially appointed and 

 Senate confirmed, and IGs who are appointed by their agency head. IGs are prohibited 

 from receiving cash awards or cash bonuses. 

 Separate Counsel for IGs: Each IG will obtain legal advice from a counsel either 

 reporting directly to the IG or another IG. 

 Direct Budget Submission: IGs will send to the heads of their respective agencies their
 budget request, which will specify the amount requested for IG training and identify
 resources necessary to support the CIGIE. Further, the President’s budget will include any
 comments from an IG who concludes that the budget submitted by the President would
 substantially inhibit the IG from performing the duties of the office.
 OIGs Established as Discrete Agencies: OIGs are defined as separate agencies and the
 IGs will have the functions, powers, and duties of an agency head for voluntary
 separation/buyouts, early outs, reemploying annuitants, waiving mandatory separation for
 law enforcement officers, and all provisions relating to SES.
COUNCIL ON INTEGRITY AND EFFICIENCY
 Council of the Inspectors General on Integrity and Efficiency: The Act, by statute,
 combines the former PCIE and ECIE into one council, and includes legislative IGs and
 other officials. The Act established the Council as “an independent entity” in the executive
 branch and provided it with the ability to financially support its activities. An Integrity
 Committee, which would receive, review, and refer for investigation allegations of
 wrongdoing that are made against IGs or senior staff, was also established.



                                               2

                                          ig

                            October 2009 Semiannual Report




OPERATIONAL IMPROVEMENTS
 Subpoena Power: The Act clarifies subpoena power as extending to electronically stored
 information and "any tangible thing."
 OIG Web site: Reports must be posted on the OIG Web site not later than 3 days after the
 report is made publicly available. Any posted report must include a summary of OIG
 findings and be searchable and downloadable. Further, a direct link for the OIG’s hotline
 must be on the OIG homepage.
 Statistics for Evaluations/Inspections: Statistical results from evaluation and inspection
 reports are to be included in OIG semiannual reports in connection with audit report
 statistics.
 Statistics for Evaluations/Inspections: Statistical results from evaluation and inspection
 reports are to be included in OIG semiannual reports in connection with audit report
 statistics.
 Extending Authorities to Agency Appointed IGs: Provisions under the Program Fraud
 Civil Remedies Act and the law enforcement authority under the IG Act, as amended, were
 extended to include agency appointed IG’s.




                                            3

                                             ig

                              October 2009 Semiannual Report




     COMMISSION’S TOP MANAGEMENT CHALLENGES
Reprint of the original document issued September 2008.
The Office of Inspector General is required by statute to annually report the top management
challenges facing the U.S. International Trade Commission. In addition, OIG regularly
discusses the Commission’s progress in addressing these challenges in the Semi-annual
Report to Congress. This assessment is based on information from OIG audit and inspection
work, a general knowledge of the Commission’s programs and activities, and input from
management on what challenges the agency is facing and the efforts the agency has taken to
address the challenges.

Management Challenge: Information Technology Security

In Fiscal Year (FY) 2008, the Commission made noticeable progress in strengthening
information security practices. Based on the work performed for the FY 2008 FISMA audit,
and except for the discrepancies noted as part of the audit, OIG determined that the
Commission’s information security program, consisting of plans, policies, procedures, and
security controls, is in place and is generally consistent with the FISMA requirements.

However, information security continues to be a challenge government wide. The FY 2008
FISMA audit results identified four areas in which the Commission should implement
corrective actions to help further ensure that its information security risk management
program and practices comply with applicable NIST standards and guidelines and FISMA
requirements. OIG made 14 new recommendations to improve the Commission’s
information security program. In addition, there still remain four open recommendations
from prior year reviews. Together, the recommendations are designed to improve the
effectiveness of Commission’s information security control program taken as a whole.
Timely implementation of the all corrective actions is essential to reducing risk to
Commission systems and information.

The Commission’s Privacy Act Program, managed by the Chief Information Officer, is
intended to ensure that the Agency fulfills the Privacy Act of 1974 requirements enacted to
balance a person’s right to privacy with the Federal Governments’ need for information to
carry out it’s responsibilities. The protection of Personally Identifiable Information is a
priority to the Commission, but is an area of vulnerability as with all government agencies.

Securing system from cyber threats is clearly the most difficult piece of the challenge
because these threats represent a moving target: they increase in number and

                                                4

                                           ig

                             October 2009 Semiannual Report




sophistication almost daily. As the Commission incorporates wireless and other technologies
to support operations and workplace flexibilities, they invite new risks that must be
anticipated and mitigated.

Finally, the Commission recently brought on–line the latest version of the Electronic
Documents Imaging System. Introduction of this mission critical system holds inherently
higher risk, as with any new system. OIG encourages the Commission to closely monitor
and continue to test this system.

Management Challenge: Financial Management

During this reporting period, the OIG audited the Commission’s 2008 and 2007 financial
statements. Based on the findings, the OIG issued an unqualified opinion on the statements
along with recommendations to strengthen internal controls over procurement, property and
cash.

However, the Commission still faces the challenge of integrating and implementing a new
financial system, Oracle Federal Financials. This major application upgrade, while providing
a more responsive and reliable financial system, has required re-training of accounting,
procurement, and budget staff as well as cost center managers. The Commission is faced
with the challenge of developing financial policies and procedures from ground zero, and
enforcing those procedures on a consistent basis to ensure continued high marks on the
reliability of the financial statements and position. In addition, the anticipated integration
between the procurement and the financial systems did not occur as planned. The
Commission is continuing to work with the National Business Center in developing
procurement system requirements.

Procurement and Contract Management

Procurement and contracts historically have been areas subject to fraud and waste throughout
the government, and effectively managing them is a continuing challenge. With significant
contracting activities in services and mission critical purchases in information technology,
vigilant oversight mechanisms become all the more important. Poor oversight, lax controls,
and fraudulent billing are just a few examples of the Commission’s vulnerability to
procurement fraud. The lack of an integrated financial – procurement system further
complicates efforts to track and reconcile procurement activities. OMB continues to impose
additional controls over procurement processes and the Commission will be challenged to
meet these standards in a timely fashion.


                                              5

                                           ig

                             October 2009 Semiannual Report




Management Challenge: Strategic Management of Human Capital

The Commission’s ability to successfully execute activities in support of its mission depends
on a highly skilled and experienced workforce. Currently the Commission has a vacancy rate
of at least 12 percent. Workload has been steadily increasing in the areas of intellectual
property-based import investigation and import injury investigations, putting further strain on
Commission staff. In order to counter the staff shortage, the Commission offers many
recruitment and retention programs such as: re-location expenses; retention bonuses;
reimbursement of student loans; professional development and training; telecommuting; and
commuter subsidies.

The Commission has a Strategic Human Capital Management Plan that is an essential
component for strategic planning. In FY 2009, the Commission is continuing to manage and
refine a new performance management system, which it considers to be the first step in
implementing a pay for performance system.




                                              6

                                           ig

                             October 2009 Semiannual Report




                            COMMISSION PROFILE
                                    http://www.usitc.gov

The Commission is an independent, quasi–judicial federal agency with broad investigative
responsibilities on matters of trade. Its mission is to: administer U.S. trade remedy laws
within its mandate in a fair and objective manner; provide the President, the U.S. Trade
Representative (USTR) and Congress with independent, quality analysis, information, and
support on matters of tariffs and international trade and competitiveness; and maintain the
Harmonized Tariff Schedule of the U.S. In so doing, the Commission serves the public by
implementing U.S. law and contributing to the development of sound and informed U.S.
trade policy. Major Commission activities include:

       •   Import Injury Investigations
       •   Intellectual Property–Based Import Investigations
       •   Industry and Economic Analysis
       •   Tariff and Trade Information Services
       •   Trade Policy Support


The six Commissioners are appointed by the President and confirmed by the Senate. They
each serve one nine-year term, unless appointed to fill an unexpired term. No more than three
Commissioners may be of the same political party. The Chairman and Vice Chairman are
designated by the President and serve a 2–year statutory term. The Chairman is responsible,
within statutory limits, for the administrative functions of the Commission.

The current Chairman is Shara L. Aranoff and the Vice Chairman is Daniel R. Pearson. The
other Commissioners are Deanna Tanner Okun, Charlotte R. Lane, Irving A. Williamson,
and Dean A. Pinkert.

For FY 2009, the Commission received a budget of $75,100.00. For the FY 2008, Congress
approved funding for the Commission of $68,400.00. The Office Director’s FY 2010
requested staffing plan is for 420 permanent, 15 term and 7 temporary positions for a total of
436 positions. All employees are located at 500 E Street, SW, Washington, DC.




                                              7

                                           ig

                             October 2009 Semiannual Report




                                 AUDIT ACTIVITY 


Reports Issued April 1, 2009 to September 30, 2009

There were no audit reports issued during this period. However, listed below are two audits
underway during this reporting period.

On-Going Audits

During this reporting period, the OIG is conducting the following audits:

US International Trade Commission’s Financial Statements Audit for Fiscal Year 2009

In March, the Office of the Inspector General engaged the services of an Independent Public
Accountant to conduct an audit of the Commission’s Fiscal Year 2009 financial statements.
At an entrance conference the OIG and agency management discussed the scope of this audit.
Subsequently, the IG approved an audit plan which served as the guide for this financial
statement audit. Fieldwork is nearing completion and a draft of the audit report is in process.
Results of this audit will be reported by November 16, 2009.

Federal Information Security Management Act (FISMA) Fiscal Year 2009 Performance
Audit

At the entrance conference, held in March 2009, a timeline was established for the audit,
along with requests to management for necessary documentation and information concerning
the Commission’s information technology systems. Fieldwork is now complete and a draft
of the report is undergoing internal review. This annual audit conducted by the OIG will be
completed by November 18, 2009.




                                              8

                                           ig

                             October 2009 Semiannual Report




OIG Audit Follow–Up Activity

The following is the status of prior OIG recommendations.

Management Letter for the Fiscal Year 2008 Audit of the U.S. International Trade
Commission's Financial Statements, OIG-AR-0l-09 (March 25, 2009)

The audit addressed the non-materials findings that were identified in the FY 2008 financial
statement audit. One recommendation remains open. The Commission did not have policies
and procedures for several areas essential for effective internal controls and
accurate financial reporting. The recommendations addressed procedures for payroll, year
end accounts payable, estimation and deprecation calculations, reconciling all aspects of
Fund Balance with Treasury, and documented procedures for processing personnel actions.

Federal Information Security Management Act Fiscal Year 2008 Performance Audit,
OIG -02-08 (September 30, 2008)

OIG issued 14 new recommendations designed to address the Commission’ information
security program. The Commission agreed with all the recommendations and has provided
corrective action plans for each item. OIG continues to monitor and evaluate the
Commission’s progress on correcting these weaknesses.




                                             9

                                          ig

                             October 2009 Semiannual Report




             INSPECTION and EVALUATION ACTIVITY
No inspections or evaluations were performed during this reporting period.

                                INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.

                         Summary of Investigative Activity

During this reporting period one case was opened and is currently under investigation. A
summary of investigative activity is presented below.


 Case Workload                   Referrals                   Investigative Results
                                 Processed


                            Received from
 Open (04/01/09)     1                              4      Referrals for Prosecution       0
                            Hotline
                            Referred to OIG
                                                           Referrals Declined for
 Initiated           0      Audit & Inspection      0                                      0
                                                           Prosecution
                            Division
                            Referred to
 Closed              1                              0      Administrative Action           0
                            Commission
                            Referred to other
 Open (09/30/09)     0                              1
                            Federal Agencies
                            Evaluated but No
                            Investigation           3
                            Initiated



                                             10 

                                            ig

                             October 2009 Semiannual Report




Unreasonable Refusal of Information or Assistance
Per the IG Act of 1978 (as amended) Section 5(a) 5, the semiannual report is to contain a
report on any activities that fall under Section 6(b) 2 as follows:
       (b) (1) Upon request of an Inspector General for information or assistance under
       subsection (a) (3), the head of any Federal agency involved shall, insofar as is
       practicable and not in contravention of any existing statutory restriction or regulation
       of the Federal agency from which the information is requested, furnish to such
       Inspector General, or to an authorized designee, such information or assistance.
       (2) Whenever information or assistance requested under subsection (a)(1) or (a)(3) is,
       in the judgment of an Inspector General, unreasonably refused or not provided, the
       Inspector General shall report the circumstances to the head of the establishment
       involved without delay.
On March 5, 2009, in the course of conducting an investigation regarding contractor
activities, certain procurement files were removed forcibly from the possession of the
Inspector General by a Commission employee. The Chairman of the Commission was
immediately notified of the situation, and the IG asked that the files be returned, intact and
unaltered. The Office of the Chairman did not comply with this request. OIG subsequently
obtained legal advice from the Office of the Chief Counsel, Treasury Inspector General for
Tax Administration. On April 27, 2009, the OIG and Office of the Chairman agreed the
original files would be secured by OIG while under examination and review.
In September 2009, the current Inspector General in the Office of the Inspector General and
the Office of the Chairman agreed that the Inspector General will have access to all records,
reports, audits, reviews, documents, papers, recommendations, or other material available to
the applicable establishment which relate to programs and operations with respect to which
that Inspector General has responsibilities under this Act, see Section 6(a)1 of the Inspector
General Act of 1978, as revised 6/2/2009.




                                              11 

                                           ig

                             October 2009 Semiannual Report




                              OTHER ACTIVITIES 


Memorandum of Understanding with Treasury Inspector General
for Tax Administration

Per the IG Act Amendments of 2008, each federal Inspector General is required to retain
independent counsel or retain counsel from another Inspector General through a reimbursable
agreement. OIG did not have in-house counsel after October 2008, and has since reached
agreement with the Office of the Chief Counsel of the Treasury Inspector General for Tax
Administration. The Office of the Chief Counsel provides legal services, advice and
legislative review to OIG on a reimbursable basis. OIG anticipate this to be a cost saving
measure that can be applied to audit and investigative work.

Contractor Fraud Reporting Form
Changes to the Federal Acquisition Regulations on November 12, 2008 required all federal
contractors to disclose to Inspectors General credible evidence of a violation of Federal
criminal law involving fraud, conflict of interest, bribery, or a gratuity violation, or a
violation of the civil False Claims Act, where such evidence arises in connection with a
federal contract. The Rule requires such disclosure even as to conduct that occurred before
December 12, 2008.

In response to this new mandate, OIG worked with the Office of the Chief Information
Officer to develop and activate an electronic reporting form on the OIG website. OIG used
the General Services Agency template as a basis for the form. The form was activated in
March 2009. However, through malicious cyber attack a few weeks later, the reporting form
and the USITC website was disabled. The CIO organization has since developed and
redeployed a fully functional and secure electronic reporting form for this purpose.

OIG Database
The OIG database is modified and active. The OIG database maintains an electronic archive
of all OIG reports back to 1992, status of recommendations, FOIA requests, investigations
and inspections data.


                                            12 

                                            ig

                             October 2009 Semiannual Report




Searchable website
Per the IG Act Amendments of 2008, OIG worked with the CIO organization to develop the
OIG website into a fully searchable site for those users seeking certain information on audits,
inspection, and semi-annual reports. The fully searchable function has been developed and
implemented.

Redesigned OIG Webpage
Per the IG Act Amendments of 2008, the OIG website has been redesigned, with the
assistance of the CIO organization. The main USITC webpage (www.usitc.gov) now has a
more prominent link to the OIG page.

Freedom of Information Act Requests

No FOIA request was received during this period related to an investigation.

Directives Review

During this period, no Commission directives required OIG review.

Government Accountability Office

During this period, the GAO issued a report “Designated Federal Entities: Survey of
Governance Practices and the Inspector General Role,” GAO-09-270 which referenced this
OIG.




                                             13 

                                           ig

                             October 2009 Semiannual Report




Liaison Activities

Council of Inspectors General on Integrity and Efficiency

The Inspector General is an active and participating member of the Council of the Inspectors
General on Integrity and Efficiency (CIGIE).

On October 14, 2008 the IG reform Act of 2008 established the Council of the Inspectors
General on Integrity and Efficiency as the unified council of all statutory IGs to provide
government-wide coordination of and focus on the activities of the OIG community. OMB’s
Deputy Director for Management is the Executive Chairperson, and IGs elected by the
CIGIE members, serve as the Chairperson and Vice Chairperson and collectively manage the
Council’s day-to-day activities. An Executive Council, comprised of selected IGs, provides
corporate leadership and long-term planning. Standing committees exist to examine
important issues and promote integrity, accountability, and excellence in government.

The mission of the Council is to address integrity, economy, and effectiveness issues that
transcend individual Government agencies; and increase the professionalism and
effectiveness of personnel by developing policies, standards, and approaches to aid in the
establishment of a well trained and highly skilled workforce in the OIGs.




                                             14 

                                            ig

                             October 2009 Semiannual Report




                   REPORTING REQUIREMENTS INDEX

Reporting requirements required by the Inspector General Act of 1978, as amended (1988)
are listed below:

.
   IG ACT                                  DESCRIPTION                           PAGE
Section 4(a)(2)    Review of Legislation
                                                                                  None
Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies
                                                                                  None
Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                   Abuses, and Deficiencies
                                                                                  None
Section 5(a)(3)    Recommendation Included Previous Semiannual Reports on
                   Which Corrective Action has not Been Completed
                                                                                  None
Section 5(a)(4)    Matters Referred to Prosecuting Authorities
                                                                                  None
Section 5(a)(5)    Summary of Instances Where Information or Assistance was
                   Unreasonably Refused
                                                                                   11
Section 5(a)(7)    Summary of Significant Reports
                                                                                   8
Section 5(a)(8)    Questioned and Unsupported Costs                               None
Section 5(a)(9)    Recommendations that Funds Be Put to Better Use                None
Section 5(a)(10)   Summary of Audit Reports Issued Before the Start of the
                   Reporting Period for Which no Management Decision Has
                   Been Made                                                      None
Section 5(a)(11)   Significant revised management decisions                       None
Section 5(a)(12)   Management Decision with Which the Inspector General is in
                   Disagreement                                                   None




                                             15 

                                             ig

                             October 2009 Semiannual Report




     Table 1: AUDIT REPORTS WITH QUESTIONED COSTS 

                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs

A.    For which no management decision has been made
      by the commencement of the period                     0       0           0

B.    Which were issued during the reporting period         0       0           0

      Subtotals (A + B)                                     0       0           0

C.    For which a management decision was made during
      the reporting period                                  0       0           0

      (i) Dollar value of disallowed costs                  0       0           0

      (ii) Dollar value of costs not disallowed             0       0           0

D.    For which no management decision has been made
      by the end of the reporting period                    0       0           0

E.    Reports for which no management decision was
      made within six months of issuance                    0       0           0




                                             16 

                                           ig

                              October 2009 Semiannual Report




       Table 2: AUDIT REPORTS WITH RECOMMENDATIONS 

                THAT FUNDS BE PUT TO BETTER USE 

                                                          Number of   Dollar
                                                           Reports    Value

A.      For which no management decision has been made
        by the commencement of the period                     0        0

B.      Which were issued during the reporting period         0         0

        Subtotals (A + B)                                     0         0

C. 	    For which a management decision was made during
        the reporting period                                  0         0

        (i) Dollar value of recommendations that were
            agreed to by management                           0         0



        (ii) Dollar value of recommendations that were
         not agreed to by management                          0         0

D. 	    For which no management decision has been made
        by the end of the reporting period                    0         0

E. 	    Reports for which no management decision was
        made within six months of issuance                    0         0




                                             17 

                                            ig

                              October 2009 Semiannual Report




                                      GLOSSARY

The following definitions apply to the terms used in this report.

Questioned cost             means a cost that is questioned because of: (1) an alleged
                            violation of a provision of a law, regulation, contract, grant,
                            cooperative agreement, or other agreement or document
                            governing the expenditure of funds; (2) a finding that, at the time
                            of the audit, such cost is not supported by adequate
                            documentation; or (3) a finding that the expenditure of funds for
                            the intended purpose is unnecessary or unreasonable.

Unsupported cost            means a cost that is questioned because at the time of the audit,
                            such cost is not supported by adequate documentation.

Disallowed cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendations that        means a recommendation that funds could be used more
funds be put to better      efficiently if management of an establishment took actions to
use                         implement and complete the recommendation, including: (1)
                            reduction in outlays; (2) deobligation of funds from programs or
                            operations; (3) withdrawal of interest subsidy costs on loans or
                            loan guarantees, insurance, or bonds; (4) costs not incurred by
                            implementing recommended improvements related to the
                            operations of the establishment, a contractor or grantee; (5)
                            avoidance of unnecessary expenditures noted in preaward reviews
                            of contract or grant agreements; or (6) any other savings which
                            are specifically identified.




                                              18 

                          OIG Points of Contact

Phone          202-205-2210                       OIG-Hotline
                                                  open 24 hours:
Fax            202-205-1859                       1-800-500-0333
OIG internet   www.usitc.gov/oig                  OIGHotline@usitc.gov
              You May Request Confidentiality
1.	 E-MAIL T O : 3 . M A I U GADDRESS:
    OIGHotline@usitc.gov              usrrc
2. TELEPHONE AND FAX NUMBERS: Office of Inspector General
    Office Phone Une (202) 205-2210 500 EStreet, S.W., Room 515
    Ethics Une        (800) 500-0333 Washington, DC 20436
    OIG Fax Une       (202), 205-1859                     .~~
